   DOE/IG-0438




   INSPECTION                    REPORTING AT OAK RIDGE OF
                              POTENTIAL NONCOMPLIANCES WITH
     REPORT                   DOE PRICE-ANDERSON AMENDMENTS
                                  ACT IMPLEMENTING RULES




                                       JANUARY 1999



 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
    OFFICE OF INSPECTIONS
                                  January 25, 1999

MEMORANDUM FOR THE SECRETARY

FROM:          Gregory H. Friedman /s/
               Inspector General

SUBJECT:       INFORMATION: Report on “Inspection of Reporting at Oak Ridge
              of Potential Noncompliances With DOE Price-Anderson
              Amendments Act Implementing Rules”

BACKGROUND

To provide oversight of how well Department of Energy (DOE) contractors were
adhering to the nuclear safety rules established by the Department to implement the
Price-Anderson Amendments Act of 1988 (PAAA), DOE established an enforcement
program, managed by the Office of Environment, Safety and Health (EH). The
purpose of the program is to identify and penalize DOE contractors for unsafe actions
or conditions that violate nuclear safety requirements for protecting workers and the
public. The single most important goal of the Department’s PAAA enforcement
program is to encourage early identification and reporting of nuclear safety
deficiencies and violations of DOE nuclear safety requirements by the DOE
contractors themselves, rather than by DOE. Enforcement actions may include the
issuance of Notices of Violations and, where appropriate, civil monetary penalties of
up to $110,000 per violation per day. The objective of our inspection was to
determine whether potential noncompliances with nuclear safety rules at the
Department’s Oak Ridge site were being identified and self-reported.


RESULTS OF INSPECTION

An EH accident investigation report of a welder fatality at the Oak Ridge K-25 Site
identified a variety of safety management system breakdowns in work planning,
hazard evaluation, communication, and establishment and implementation of adequate
work controls. However, we determined that several of the safety management
system breakdowns also resulted in potential violations of DOE PAAA nuclear safety
rules, which were not identified as such and self-reported by the contractor.
We identified examples of potential noncompliances with DOE nuclear safety rules,
which involved the failure by contractor personnel to follow established procedures
for the welder’s activities on the day of the accident. None of the violations of
established procedures by the contractor personnel were recognized as potential
noncompliances with the DOE rules that were established to implement the PAAA,
and, therefore, none were self-reported by the contractor. Neither the EH accident
investigation board nor contractor officials recognized that the violations of
established procedures that contributed to the welder fatality were potential
noncompliances with DOE PAAA implementing rules. We concluded, therefore, that
additional actions are required by the Department to ensure that DOE contractors are
taking appropriate steps to implement the Department’s goal of early identification
and self-reporting by the contractor of nuclear safety deficiencies and violations of
DOE nuclear safety requirements.

We recommended that the Assistant Secretary for Environment, Safety and Health
ensure that: (1) if an accident at a DOE facility where DOE PAAA rules apply
involves violations of procedures (e.g., work control violations), an accident
investigation board consider, based on reasonable evidence, whether the procedural
violations were potential noncompliances with DOE PAAA rules; (2) when an
accident investigation board identifies facts or circumstances that appear germane to
DOE PAAA rules, the board promptly notifies the contractor’s PAAA point of
contact so that the contractor can review the facts and circumstances and report any
potential noncompliances, as appropriate; (3) when an accident investigation board
identifies facts or circumstances that appear germane to DOE PAAA rules, these facts
or circumstances are included in the accident investigation report; and (4) for
accidents at DOE facilities where there are work control violations and radiological
issues that potentially involve DOE PAAA rules, the accident investigation reports are
referred to the EH Office of Enforcement and Investigation for review. We also
recommended that the Manager, Oak Ridge Operations Office, ensure that, where
there is reasonable evidence that a noncompliance with DOE PAAA nuclear safety
rules has occurred, Oak Ridge contractors fulfill their contractual responsibilities for
identifying and self-reporting potential DOE PAAA rule noncompliances.

MANAGEMENT REACTION

Management concurred with the findings and recommendations and initiated
appropriate corrective actions.

Attachment

cc: Acting Deputy Secretary
    Under Secretary
REPORTING AT OAK RIDGE OF POTENTIAL NONCOMPLIANCES
WITH DOE PRICE-ANDERSON AMENDMENTS ACT
IMPLEMENTING RULES

TABLE OF
CONTENTS

                    Overview

                    Introduction and Objective… … … … … … … … … … … … …    1

                    Observations and Conclusions… … … … … … … … … … …      3


                    Identification and Reporting of DOE Rule
                    Noncompliances

                    Details of Finding… … … … … … … … … … … … … … … … …    4

                    Recommendations and Comments… … … … … … … … … .       11


                    Appendix

                    Scope and Methodology… … … … … … … … … … … … … …      14

                    Exhibits… … … … … … … … … … … … … … … … … … … … … .   15
Overview
INTRODUCTION AND    On occasion, members of Congress have expressed concerns
OBJECTIVE           regarding the adequacy of the oversight provided by the
                    Department of Energy (DOE) of its programs and activities. To
                    provide oversight of how well the Department’s contractors were
                    adhering to the DOE nuclear safety rules established to implement
                    the Price-Anderson Amendments Act of 1988 (PAAA), DOE
                    established an enforcement program, managed by the Office of
                    Enforcement and Investigation, Office of Environment, Safety and
                    Health (EH), to identify and penalize DOE contractors for unsafe
                    actions or conditions that violate nuclear safety requirements for
                    protecting workers and the public.

                    The single most important goal of the Department’s PAAA
                    enforcement program is to encourage early identification and
                    reporting of nuclear safety deficiencies and violations of DOE
                    nuclear safety requirements by the DOE contractors themselves,
                    rather than by DOE. PAAA enforcement is part of DOE’s overall
                    safety management program, which focuses on “line management
                    responsibility for safety, comprehensive requirements,
                    competence commensurate with responsibilities, independent
                    oversight, and enforcement.” In addition to extending
                    indemnification to DOE operating contractors for consequences
                    of a nuclear incident, the PAAA also, in effect, requires DOE to
                    establish an internal self-regulatory process.

                    DOE’s regulatory basis for its enforcement program is published
                    in 10 Code of Federal Regulations (CFR) Part 820, “Procedural
                    Rules for DOE Nuclear Activities.” Enforcement actions may
                    include the issuance of Notices of Violations and, where
                    appropriate, civil monetary penalties of up to $110,000 per
                    violation per day. Two substantive rules are enforceable: the
                    DOE PAAA Quality Assurance Rule and the DOE PAAA
                    Occupational Radiation Protection Rule.

                    10 CFR Part 830, “Nuclear Safety Management,” governs the
 DOE PAAA Quality   conduct of DOE management and operating contractors and
 Assurance Rule     other persons at DOE nuclear facilities. Part 830.120, “Quality
                    assurance requirements,” requires contractors to develop,
                    implement, and maintain a Quality Assurance Program and states
                    that work shall be performed to established technical standards
                    and administrative controls using approved instructions,
                    procedures or other appropriate means.
                               10 CFR Part 835, “Occupational Radiation


Page 1                 Reporting at Oak Ridge of Potential Noncompliances
                       With DOE Price-Anderson Amendments Act
                       Implementing Rules
DOE PAAA               Protection,” establishes radiation protection standards, limits, and
Occupational           program requirements for protecting individuals from ionizing
Radiation Protection   radiation resulting from the conduct of DOE activities. Part
Rule                   835.101, “Radiation protection programs,” states that an activity
                       shall be conducted in compliance with a documented radiation
                       protection program as approved by DOE.

                       DOE expects contractors to implement appropriate steps to assure
                       their activities comply with nuclear safety requirements, and to self-
                       identify noncompliances that meet DOE’s reporting thresholds. The
                       EH Office of Enforcement and Investigation’s nuclear safety
                       compliance reporting process consists of two components: the
                       DOE Noncompliance Tracking System and the local contractors’
                       noncompliance tracking systems. The preferred path is for the
                       contractor to self-report potential noncompliances. Therefore, if a
                       DOE element or another external entity identifies a noncompliance
                       condition, the preferred process is for that entity to notify the
                       contractor so that the contractor could self-report the
                       noncompliance. DOE has established thresholds for
                       noncompliances and expects the noncompliances to be reported to
                       DOE via the Noncompliance Tracking System. The local
                       contractor’s system tracks noncompliances that are below the
                       threshold for reporting in the Noncompliance Tracking System.
                       Issues reported into the contractor’s system are subject to review by
                       DOE and should be periodically reviewed by the contractor to
                       identify trends.

                       The objective of our inspection was to determine whether potential
Inspection Objective   noncompliances with nuclear safety rules at the Department’s Oak
                       Ridge site were being identified, and self-reported as such by the
                       DOE contractor. According to an EH accident investigation report,
                       the failure by Lockheed Martin Energy Systems (LMES) personnel
                       to implement existing procedures contributed to a welder fatality,
                       which occurred at the Department’s Oak Ridge East Tennessee
                       Technology Park (ETTP), formerly the K-25 Site. We looked at
                       whether the noncompliances by LMES personnel with existing
                       procedures for the welder’s activities were recognized as potential
                       noncompliances with DOE nuclear safety rules, and reported by
                       LMES. According to officials in the EH Office of Enforcement and
                       Investigation, there was a direct nexus between the procedures for
                       the welder’s activities, which were conducted in a “High
                       Contamination Area” in a nuclear facility, and the DOE PAAA
                       nuclear safety rules.
                       At the time of our review, the ETTP was managed for the

Page 2                      Reporting at Oak Ridge of Potential Noncompliances
                            With DOE Price-Anderson Amendments Act
                            Implementing Rules
                   Department by LMES, which was required to adhere to the nuclear
                   safety rules.

                   On February 13, 1997, a welder at the Department’s Oak Ridge site
                   was fatally burned as a result of a welding accident. In April 1997,
                   the EH Assistant Secretary issued an accident investigation report
                   on the fatality entitled: “Type A Accident Investigation Board
                   Report on the February 13, 1997, Welding/Cutting Fatality at the
                   K-33 Building, K-25 Site Oak Ridge, Tennessee.” The EH
                   Accident Investigation Report focused on the industrial safety
                   aspects of the welder fatality. According to the EH Accident
                   Investigation Report, the facts surrounding the accident included a
                   variety of safety management system breakdowns in work planning,
                   hazard evaluation, communication, and establishment and
                   implementation of adequate work controls. Also, it was the view of
                   Oak Ridge management that the accident was the result of a serious
                   breakdown of industrial safety controls. However, we determined
                   that several of the safety management system breakdowns also
                   resulted in potential violations of DOE PAAA nuclear safety rules.
                   These potential violations are the focus of our inspection report.

                   We concluded that additional actions are required by the
                   Department to ensure that DOE contractors are taking appropriate
OBSERVATIONS AND   steps to implement the Department’s goal of early identification and
CONCLUSIONS        self-reporting of nuclear safety deficiencies and violations of DOE
                   nuclear safety requirements. We identified four examples of
                   potential noncompliances with nuclear safety rules, which involved
                   the failure by LMES personnel to follow established procedures for
                   the welder’s activities on the day of the accident. None of the
                   violations of established procedures by LMES personnel were
                   recognized as potential noncompliances with the DOE rules that
                   were established to implement the PAAA, and, therefore, none were
                   self-reported by the contractor in either the Department’s
                   Noncompliance Tracking System or the contractor’s noncompliance
                   tracking system. Neither the EH Accident Investigation Board nor
                   LMES officials recognized that the violations of established
                   procedures that contributed to the welder fatality were potential
                   noncompliances with DOE PAAA implementing rules. This led us
                   to conclude that additional actions are needed to ensure the
                   implementation of the Department’s goal of early identification and
                   self-reporting of violations of nuclear safety rules.
                   In its report on the February 13, 1997, welder fatality at the K-25
                   Site, an EH Accident Investigation Board identified procedural
                   violations by LMES personnel related to the welder’s activities. We

Page 3                  Reporting at Oak Ridge of Potential Noncompliances
                        With DOE Price-Anderson Amendments Act
                        Implementing Rules
IDENTIFICATION AND REPORTING OF DOE RULE NONCOMPLIANCES
Potential DOE PAAA    found no evidence, however, that the EH Accident Investigation
Rule Noncompliances   Board recognized that the procedural violations were potential
Not Identified or     noncompliances with the DOE rules established to implement
Reported              PAAA. Likewise, we found no evidence that LMES officials
                      recognized that the procedural violations were potential
                      noncompliances. Therefore, LMES did not self-report the
                      procedural violations as potential noncompliances in the DOE
                      Noncompliance Tracking System or the LMES noncompliance
                      tracking system. We learned that LMES officials had contacted the
                      EH Office of Enforcement and Investigation to determine if the
                      accident had any PAAA implications. However, our review of
                      pertinent documents shows that the basis for the LMES contact was
                      solely due to the accident occurring in a nuclear facility, and not
                      because the procedural violations may have been potential
                      noncompliances with nuclear safety rules.

                      According to the DOE PAAA Quality Assurance Rule, contractors
                      shall perform work in accordance with established technical
                      standards and administrative controls using approved instructions,
DOE PAAA Quality      procedures or other appropriate means. LMES established
Assurance Rule        procedures to be followed for welding, burning and hotwork
                      activities. However, some of these procedures were not followed.
                      According to the EH Accident Investigation Board, the failure of
                      these work controls contributed to the welder fatality at the K-25
                      Site. We believe that, under the DOE PAAA Quality Assurance
                      Rule, these failures were potential noncompliances with DOE’s
                      nuclear safety requirements that should have been identified by both
                      the EH Accident Investigation Board and LMES and, therefore,
                      self-reported by LMES under DOE’s PAAA enforcement program.

                      We identified three examples of work control failures involving
                      LMES procedures that were not followed: a fire watch was not
                      designated; the work site was not inspected by the Service
LMES Procedures       Supervisor prior to initiation of the work; and industrial hygiene
Not Followed          surveys were not conducted. These work control failures occurred
                      in a “High Contamination Area” within a nuclear facility. Although
                      the facility was not operational, the posting of the area as a “High
                      Contamination Area” was based on the results of radiological
                      surveys and the possibility of contamination resulting from cutting
                      into the radiologically-contaminated process system. These
                      examples involved the failure of LMES to follow established work
                      controls associated with day-to-day operations, such as welding,
                      burning, and hotwork activities. The failure resulted from certain
                      activities not being performed in accordance with established LMES

Page 4                                                              Details of Finding
                 operating standards and procedures. The work controls that failed
                 would have been in effect if the welding activity had occurred in a
                 nuclear facility or a non-nuclear facility. Therefore, the work
                 control failures have nuclear safety implications. In the case of the
                 welder fatality, the work controls were being applied to work in a
                 “High Contamination Area” of a non-operational nuclear facility.
                 Although the potential for a serious nuclear safety incident was
                 mitigated by the facility not being operational, the work control
                 failures contributed to an accident that resulted in the death of a
                 welder.

                 The following is a brief discussion of the work control failures, i.e.,
                 failure to follow the LMES standard for welding/cutting operations,
                 that we identified as potential noncompliances with the DOE PAAA
                 Quality Assurance Rule.

                 The LMES standard states that fire watchers would be required for
                 all welding/burning/hotwork (W/B/H) operations performed outside
                 approved areas or shops and that the names of the designated fire
                 watchers were to be listed on the W/B/H permit. We reviewed the
Fire Watch Not   W/B/H permit issued for the work at Building K-33, which was
Designated       located at the K-25 Site, for February 13, 1997, the date of the
                 welder fatality [See Exhibit 1]. The W/B/H permit does not list a
                 designated fire watcher. Also, according to the EH Accident
                 Investigation Board’s report on the welder fatality: “No fire watch
                 was identified, nor was a fire watch present in the cell at the time of
                 the accident, as required by LMES procedures.”

                 The LMES standard states that Service Supervisors are to inspect
                 the work site prior to the initiation of work and verify that all
                 precautions are taken. The Service Supervisor shall sign the permit
                 after all actions regarding the precautions have been completed and
Work Site Not    verified. The W/B/H permit for February 13, 1997, contained a list
Inspected        of precautions to be taken prior to the commencement of work.
                 Our review of the W/B/H permit showed that there was no
                 verification by the Service Supervisor that the precautions required
                 by the Issuing Authority on the permit had been taken. In fact, the
                 same individual signed the permit as both the “Issuing Authority”
                 and the “Service Supervisor.” We also observed that, by signing the
                 permit, the Service Supervisor was certifying that the work area
                 was personally inspected and all precautions fully implemented.
                 According to the EH Accident Investigation Board’s report,
                 however, the Service Supervisor had not been at the welder’s work
                 area (Building K-33, Cell 7) on February 13, 1997, prior to the

Page 5                                                            Details of Finding
                        accident, where he would have needed to be to determine whether
                        the precautions identified on the W/H/B permit had been fully
                        implemented.

                        The LMES standard states that the Industrial Hygiene Department
                        reviews the welding/burning/ hotwork task for chemical
                        contamination hazards upon request of the Issuing Authority, and
                        recommends proper protective equipment. One of the precautions
Industrial Hygiene      checked on the W/B/H permit was for chemical hazards to be
Surveys Not Conducted   evaluated. However, there was no verification on the permit that
                        this had been accomplished. According to the EH Accident
                        Investigation Board’s report, the Industrial Hygiene Department
                        was not notified prior to the welding/cutting operations.
                        Consequently, the industrial hygiene surveys, which were required
                        by the work permits, were not conducted.

                        According to the Senior Investigator in the EH Office of
                        Enforcement and Investigation, the examples we identified appear
                        to be noncompliances with the DOE PAAA Quality Assurance
                        Rule. Regarding the fire watch, the EH Senior Investigator said
Work Control Failures   that it appears to her that the LMES procedures required a fire
Were Potential DOE      watch at the site of the welding operation and that the name of the
PAAA Noncompliances     fire watch must be listed on the W/B/H permit by the Service
                        Supervisor/Contractor Representative. She said that since the
                        permit does not list the name of a fire watch, there appears to be a
                        DOE PAAA Quality Assurance Rule noncompliance.

                        Regarding inspection of the work site, the EH Senior Investigator
                        said that it is evident to her that the Service Supervisor is required
                        to inspect the work site prior to the initiation of work; to verify that
                        all necessary precautions were taken; and to sign the Signature
                        block on the W/B/H permit after all actions were completed and
                        verified. She said that since the Service Supervisor had not been at
                        the work area on February 13, 1997, prior to the accident, it is clear
                        to her that this is a DOE PAAA Quality Assurance Rule
                        noncompliance.

                        Regarding industrial hygiene surveys, the EH Senior Investigator
                        said that the W/B/H permit indicates that “chemical hazards” was
                        checked as a precaution that had to be evaluated, and that the block
                        on the permit marked “V,” for verified, was not checked. She said
                        that the lack of an industrial hygiene survey appears to be another
                        DOE PAAA Quality Assurance Rule noncompliance.


Page 6                                                                   Details of Finding
                         The DOE PAAA Occupational Radiation Protection Rule (10 CFR
                         Part 835) establishes radiation protection standards, limits, and
                         program requirements for protecting individuals from ionizing
                         radiation resulting from the conduct of DOE activities. According
DOE PAAA                 to a document entitled “K-25 Site 10 CFR 835 Compliance
Occupational Radiation   Assessment,” dated as of May 19, 1995, the evidence for
Protection Rule          compliance at the K-25 Site with the requirements of 10 CFR Part
                         835 regarding protective clothing was, among other things, the
                         K-25 Site Radiological Control Program Manual (K-25 Site
                         Manual).

                         According to the K-25 Site Manual, a Radiological Work Permit
                         (RWP) is used to control work activities involving radiological
                         hazards and is required for any work in certain areas, to include
                         “High Contamination Areas.” DOE “Radiological Control
                         Manual” requirements, which are compiled in the K-25 Site
                         Manual, state that outer personal clothing, such as work coveralls,
                         should not be worn under protective clothing for entry to a “High
                         Contamination Area,” or during work conditions requiring a double
                         set of protective clothing.

                         The RWP for the work in Building K-33 at the time of the welder
                         fatality identified the work area as a “High Contamination Area.”
                         According to the RWP, the required anti-contamination (anti-C)
                         clothing to be worn by the welder consisted of, among other things,
                         two pairs of anti-C coveralls [See Exhibit 2]. The EH Accident
                         Investigation Board’s report on the welder fatality stated, however,
                         that at the time of the accident, the welder was wearing one set of
                         underwear, one set of 100 percent cotton blue general-purpose
                         coveralls, and two sets of 100 percent cotton yellow anti-C
                         coveralls. According to the EH Senior Investigator, the wearing of
                         general purpose coveralls by the welder under the two sets of
                         anti-C coveralls appears to be a noncompliance with the DOE
                         PAAA Occupational Radiation Protection Rule.



                         The EH Senior Investigator said that an Investigator from the EH
                         Office of Operating Experience and Feedback had conducted a
                         preliminary survey of the potential DOE PAAA noncompliances
                         that we had identified. She reiterated that the lack of a fire watch;




Page 7                                                                  Details of Finding
 Potential DOE PAAA     the Service Supervisor not inspecting the work site prior to the
 Rule Noncompliances    initiation of work, yet verifying that all precautions on the W/B/H
 Not Reported           permit were taken; and the industrial hygiene surveys not being
                        conducted, all appear to be noncompliances with the DOE PAAA
                        Quality Assurance Rule. She also said that, at a minimum, the
                        potential noncompliance with the DOE PAAA Occupational
                        Radiation Protection Rule, i.e., the clothing violation concerning the
                        welder wearing three layers of clothing, should have been reported
                        in the LMES noncompliance tracking system, and, arguably, could
                        have been reported in the DOE Noncompliance Tracking System.
                        She said, however, that as of December 19, 1997, no
                        noncompliances regarding the welder fatality had been reported in
                        the DOE Noncompliance Tracking System. Also, both the EH
                        Senior Investigator and the EH Investigator agreed that, at a
                        minimum, the DOE PAAA Quality Assurance Rule noncompliances
                        should have been reported in the LMES noncompliance tracking
                        system. However, as of May 1998, there were no noncompliances
                        regarding the welder fatality entered into the LMES noncompliance
                        tracking system.

                        Documentation provided by the LMES PAAA Coordinator showed
                        that, based on LMES “screening” guidance and a discussion with
                        the Director, EH Office of Enforcement and Investigation, LMES
                        officials determined that the welder fatality “did not have PAAA
LMES Did Not Self-      implications.” Therefore, no potential PAAA noncompliances were
Report Potential        identified or self-reported by LMES.
Noncompliances Based
On Screening Guidance   LMES officials used a noncompliance evaluation guide (screening
                        guide) in deciding whether events deviated from nuclear safety or
                        radiological requirements and may have constituted potential PAAA
                        noncompliances. The guide contained a series of “YES” or “NO”
                        questions to be answered regarding a particular event. Based on the
                        user’s responses to certain questions, the document could assist the
                        user to identify whether a potential PAAA noncompliance had
                        occurred.

                        For example, Part A of the guide contained an overall question,
                        “Does the deficiency being screened for Potential PAAA
                        Noncompliance involve or relate to: . . .” Following this question
                        were 19 “YES” or “NO” questions to help answer the overall
                        question. Part A also contained a section entitled: “Identify the
                        Nuclear Safety Requirements potentially violated,” which contained
                        a “Comments” section. According to the guide, if answers to both
                        questions 1 and 2 were “NO,” the deficiency was not a potential

Page 8                                                                 Details of Finding
         PAAA noncompliance. If an answer to any of the 19 questions was
         “YES,” the event may involve a potential PAAA noncompliance.

         We reviewed the document used by LMES officials to screen the
         welder fatality for potential DOE PAAA rule noncompliances. This
         document, entitled “PRICE ANDERSON AMENDMENTS ACT
         POTENTIAL NONCOMPLIANCE EVALUATION GUIDE,” was
         signed June 16, 1997, by an official in the LMES Business Unit
         Compliance Organization [See Exhibit 3]. LMES officials
         responded “YES” to question 1, which concerned whether the
         facility involved radioactive or fissile materials in a form or quantity
         that a nuclear or radiological hazard existed to employees or the
         general public. However, LMES officials responded “NO” to
         questions 10 and 13, which concerned whether nuclear or radiation
         safety procedures were inadequate or were violated. According to
         the narrative in the guide, LMES officials considered the nature of
         the welder accident to be “Personnel Safety - Occupational Illness/
         Injuries.” Also, according to the narrative, the focus was on
         personnel safety and not related to nuclear safety, and no issues
         were identified to reflect adversely on the nuclear safety aspect of
         the work in K-33. The narrative further indicated that informal
         discussions between LMES senior management and DOE Office of
         Enforcement and Investigation personnel “concurred” that the event
         did not have PAAA implications.

         From the responses by LMES officials to questions in the guide, it
         appears that the sole basis for the determination by LMES officials
         that the welder fatality may have involved a potential DOE PAAA
         noncompliance was that the welder fatality occurred in a nuclear
         facility. It also appears, based on the “NO” responses to questions
         concerning potential violations/failure to follow procedures, that
         LMES officials did not recognize that the violations of procedures,
         e.g., the violation of the RWP regarding the layers of welder’s
         clothing and the failure of work controls associated with the W/B/H
         permit, were potential DOE PAAA noncompliances.




         We discussed the noncompliance evaluation guide that was
         prepared by LMES for the welder fatality, with the Director, EH
         Office of Enforcement and Investigation. He said, after reviewing
         the LMES responses to the questions in the guide, that it appeared
         to him that LMES officials took an extremely conservative

Page 9                                                    Details of Finding
Potential DOE PAAA   approach when completing the questions in the guide in determining
Noncompliances       whether potential violations were reportable. He identified specific
Should Have Been     questions related to the adequacy of, or failure to follow, nuclear
Self-Reported        safety procedures, that he felt had been incorrectly answered by
                     LMES officials.

                     For example, regarding the LMES response of “NO” to the item in
                     question 10 concerning “Violation/Inadequate Nuclear or Rad
                     Safety Related Procedures,” the Director said that the LMES
                     response to this item should have been “YES.” He said that the
                     incident had been reported in the Occurrence Reporting and
                     Processing System and there was an obvious violation of the RWP
                     regarding the layers of clothing worn by the welder. He said that
                     this is the type of potential noncompliance that he would want to
                     see reported in the contractor’s noncompliance tracking system, at a
                     minimum.

                     Regarding the LMES response of “NO” to question 13, “Any
                     inadequate nuclear safety instructions/procedures or failure to
                     follow nuclear safety instructions/procedures, including intentional
                     violations,” the Director said that the LMES response to this
                     question should have been “YES.” He said that he viewed RWP
                     procedures, in the context of enforcement, as nuclear safety
                     procedures because he defines nuclear safety the same as
                     radiological safety. Therefore, in his view, a violation of the RWP
                     would be a violation of nuclear safety procedures.

                     The Director said that, at a minimum, the potential PAAA
                     noncompliances should have been reported by LMES in the LMES
                     noncompliance tracking system.

                     Regarding the statement in the narrative by LMES officials that
                     “Informal discussions between LMES senior management and DOE
                     Office of Enforcement and Investigation personnel concurred that
                     the event did not have PAAA implications,” the Director said that
                     most likely he had received a call from LMES officials regarding the
                     welder incident. He said that, to the best of his recollection, the
                     information presented to him by LMES regarding the welder fatality
                     probably described the incident as a fire-related, industrial-type
                     accident at a nuclear facility. He said that he probably had
                     responded, based on what he was told by LMES officials, that there
                     did not appear to be any DOE PAAA noncompliances.

                     The Director said that during the first year of enforcement of PAAA

Page 10                                                             Details of Finding
                  [DOE enforcement of PAAA began in January 1996], he was often
                  contacted via telephone, given incomplete information by the caller
                  about an incident, and asked if there were any PAAA
                  noncompliances. He said that, at first, he did provide some
                  guidance to the callers because he was trying to “jump start” the
                  DOE PAAA program. He said, however, that due to contractors
                  calling and not providing complete information, he is now very
                  guarded when talking to callers about potential noncompliances via
                  telephone.

                  We recommend that the Assistant Secretary for Environment,
                  Safety and Health:

                  1. Ensure that, if an accident at a DOE facility where DOE PAAA
                     rules apply involves violations of procedures (e.g., work control
                     violations), an accident investigation board consider, based on
RECOMMENDATIONS      reasonable evidence, whether the procedural violations were
                     potential noncompliances with DOE PAAA rules.

                  2. Ensure that, when an accident investigation board identifies
                     facts or circumstances that appear germane to DOE PAAA
                     rules, the board promptly notifies the contractor’s PAAA point
                     of contact so that the contractor can review the facts and
                     circumstances and report any potential noncompliances, as
                     appropriate.

                  3. Ensure that, when an accident investigation board identifies
                     facts or circumstances that appear germane to DOE PAAA
                     rules, the facts or circumstances are included in the accident
                     investigation report.

                  4. Ensure that, for accidents at DOE facilities where there are
                     work control violations and radiological issues that potentially
                     involve DOE PAAA rules, the accident investigation reports are
                     referred to the Office of Enforcement and Investigation for
                     review.




Page 11                                       Recommendations and Comments
                   5. Ensure that, where there is reasonable evidence that a non-
                      compliance with DOE PAAA nuclear safety rules has
                      occurred, Oak Ridge contractors fulfill their contractual
                      responsibilities for identifying and self-reporting potential
                      DOE PAAA rule noncompliances. [Note: Independent of
                      action by the Oak Ridge Manager, the Oak Ridge contractors
                      also have a direct regulatory responsibility to ensure that they
                      are in full compliance with DOE PAAA nuclear safety rules.]

      MANAGEMENT   Management concurred with our recommendations. In comments
      COMMENTS     dated December 2, 1998, to our draft report, the Acting Assistant
                   Secretary for Environment, Safety and Health concurred with
                   Recommendations 1-4.

                   Regarding Recommendation 1, he said that revised DOE O
                   225.1A, “Accident Investigations,” and the accident investigation
                   guide (G 225.1A-1) direct the accident investigation board
                   chairperson to notify the Director of the Office of Enforcement
                   and Investigation of Price-Anderson issues. This requirement will
                   be reinforced to accident investigation board personnel through
                   required training which heightens awareness of this responsibility.

                   Regarding Recommendation 2, he said that the intent of the
                   recommendation was carried out informally in the recent accident
                   investigations at Idaho, Fernald, and Hanford. The accident
                   investigation guide and accident investigation training program
                   will be modified by January 30, 1999, to reflect this
                   recommendation.

                   Regarding Recommendation 3, he said that the accident
                   investigation guide and accident investigation training program
                   will be modified by January 30, 1999, to reflect this
                   recommendation.

                   Regarding Recommendation 4, he said that the accident
                   investigation guide will be modified by January 30, 1999, to reflect
                   the accident investigation reports involving work control and
                   radiological issues that potentially involve DOE PAAA rules are
                   to be forwarded to the Office of Enforcement and Investigation.

                   In comments to our draft report dated December 22, 1998, the
                   OR Chief Financial Officer concurred with Recommendation 5.
                   She said that, in regards to nuclear safety rules, OR has directed
                   its major contractors to comply with nuclear safety rules;

Page 12                                       Recommendations and Comments
            effectively correct noncompliance; and aggressively self-report
            nuclear rule noncompliance. To reinforce the importance of non-
            compliance self-reporting, OR stated in the direction to its contractors
            that: “In particular, active self-reporting will be viewed as positive
            safety initiative. Conversely, a lack of self-reporting . . . will be viewed
            as negative contract performance.”

INSPECTOR   We believe the corrective actions by management are responsive to our
COMMENTS    recommendations.




Page 13                                        Recommendations and Comments
Appendix
     Scope and     We conducted our inspection at DOE Headquarters and the Oak
     Methodology   Ridge Operations Office during the period February 5, 1998, to
                   March 17, 1998. We interviewed selected officials in the Office
                   of Environment, Safety and Health (EH), as well as Lockheed
                   Martin Energy Systems officials, as appropriate.

                   Also, we reviewed applicable Federal and DOE nuclear safety
                   regulations, including the 1988 Price-Anderson Amendments
                   Act (PAAA) and related DOE implementation rules, such as
                   10 CFR 830 (Quality Assurance Rule) and 10 CFR 835
                   (Occupational Radiation Protection Rule); documentation con-
                   cerning the EH Office of Enforcement and Investigation’s
                   enforcement program; the Department’s “Radiological Control
                   Manual”; and the site radiological control manual, entitled “K-25
                   Site Radiological Control Program Manual,” dated September
                   1995.

                   In addition, we reviewed the EH accident investigation report,
                   entitled: “Type A Accident Investigation Board Report on the
                   February 13, 1997, Welding/Cutting Fatality at the K-33
                   Building, K-25 Site Oak Ridge, Tennessee.” We also reviewed
                   documents from the EH Accident Investigation Board’s official
                   accident investigation file, including the welding/burning/
                   hotwork permit and the radiological work permit that were in
                   effect at the time of the welding accident.

                   The inspection was conducted in accordance with the
                   Quality Standards for Inspections issued by the President’s
                   Council on Integrity and Efficiency.




Page 14                                                  Scope and Methodology
     Exhibits


                Exhibit 1:   Welding/Burning/Hotwork Permit, dated
                             February 13, 1997.

                Exhibit 2:   Radiological Work Permit #970067, dated February 7,
                             1997.

                Exhibit 3:   “PRICE ANDERSON AMENDMENTS ACT
                             POTENTIAL NONCOMPLIANCE EVALUATION
                             GUIDE,” dated June 16, 1997.




                     Note: Copies of the exhibits can be obtained by calling the
                            OIG Reports requests line (202) 586-2744.




Page 15                                                                  Exhibits
                                                      IG Report No.______________


                        CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness
of its products. We wish to make our reports as responsive as possible to our
customers' requirements, and therefore ask that you consider sharing your thoughts
with us. On the back of this form, you may suggest improvements to enhance the
effectiveness of future reports. Please include answers to the following questions if
they are applicable to you:

       1.      What additional background information about the
               selection, scheduling, scope, or procedures of the audit
               or inspection would have been helpful to the reader in
               understanding this report?

       2.      What additional information related to findings and
               recommendations could have been included in this
               report to assist management in implementing corrective
               actions?

       3.      What format, stylistic, or organizational changes might have
               made this report's overall message more clear to the reader?

       4.      What additional actions could the Office of Inspector General
               have taken on the issues discussed in this report which would
               have been helpful?

Please include your name and telephone number so that we may contact you should
we have any questions about your comments.

Name ____________________________ Date_____________________

Telephone _______________________ Organization_____________
When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                      Office of Inspector General (IG-1)
                      U.S. Department of Energy
                      Washington, D.C. 20585
                      ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as cus-
tomer friendly and cost effective as possible. Therefore, this report will be available
      electronically through the Internet at the following alternative address:


     Department of Energy Human Resources and Administration Home Page
                           http://www.hr.doe.gov/ig

         Your comments would be appreciated and can be provided on the
                Customer Response Form attached to the report.

                        This report can be obtained from the
                             U.S. Department of Energy
                   Office of Scientific and Technical Information
                                     P.O. Box 62
                           Oak Ridge, Tennessee 37831
